I*

>

No.

IN THE

SUPREME COURT OF THE UNITED STATES

AU6 3 / 2020
20FICEOF

I!l§CLerk

RUBEN ORLANDO BENITEZ—PETITIONER

VS.

U.S. CT. OF APPEALS 5th CIRCUIT—RESPONDENT(S)

ON PETITION FOR AN EXTRAORDINARY WRIT
MANDAMUS/PROHIBITION

RUBEN ORLANDO BENITEZ

SMCI P.O. BOX 1419

LEAKESVILLE, MS 39451

NO PHONE AVAILABLE

RECEIVED
SEP 3 0 2020
office of the clerk

I qiipreMECOURT, U.S.

>

QUESTION(S) PRESENTED

Question No. 1
Whether the Court committed errors therein arising from oversight

Question No. 2
Whether new evidence serves as precedence

Question No. 3
Whether the deciding Judges acted with malice by not issuing an order
of recusal

Question No. 4
Whether a court, which acknowledges a clear "Lack of Jurisdiction"
abuses its authority in not remanding to the Jurisdictional Court

Question No. 5
Whether the Court committed error in not accepting the Defendant's
original defense of "Lack of Jurisdiction" made under oath

>

INDEX TO APPENDICES

APPENDIX A

US COA 5th CIRCUIT RULE 60 (B)

APPENDIX B------US COA 5th CIRCUIT APPEAL ORDER
APPENDIX C

US DIST. CT. SO. MS. GRANTING FORMA PAUPERIS

APPENDIX D

US DIST. CT. SO. MS. FINAL JUDGMENT

APPENDIX E------RESPONSE TO REQUEST FOR ADMISSION
APPENDIX F------SUMMONS
APPENDIX G-— ANSWER TO COMPLAINT
~

APPENDIX H-—LETTER
APPENDIX I------NOTICE, ENVELOPE, AND SASE
APPENDIX J

EMAIL (EX-PARTE COMMUNICATION)

EXHIBITS

1-AFFIDAVITS [KRYSTALYN BENITEZ, JAZMIN ROSA, & MARIANNE BENITEZ]

2—OBJECTION TO DENIAL OF ENTRY OF DEFAULT

3—PREDISPOSITION STAETMENT BY REVIEWING JUDGES

4—DEFENDANT'S ORIGINAL ANSWER TO COMPLAINT SUBMITTED IN DEFAULT

5—PLAINTIFF'S SUBMITTED RESPONSE TO ANSWER TO COMPLAINT

.

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page

4

All parties do not appear in the caption of the case on the cover page. A list of

all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

/
/

Stephen R. Graben Assistant U.S. Attorney

Jeffrey Atkins, Deputy Clerk of U.S. Supreme Court

U.S. Court of Appeals Fifth (5th) Circuit Court

"hxx

STATEMENT OF THE CASE

On May 24, 2017 Indigent Pro Se Petitioner Ruben Orlando Benitez filed a Civil
suit, Cause No. 2017-063 (2), against one Jeffrey Atkins in the Greene County
Circuit Court of Mississippi to which Jeffrey Atkins [attorney thereof] admits
receiving such on August 1, 2017 and refused to sign or return the
acknowledgment included by its required date. Jeffrey Atkins also admits that he
possesses the knowledge, skills, and ability to understand the clear directions of
the summons:

"Request for Admission No.l: Did Defendant receive/possess the
summons and complaint on August 1, 2017 through U.S.JVlail?
Supplemental Response: Yes
Request of Admission No. 2: Did Defendant sign or return the
acknowledgment included in the mailing by its required date of
August 8, 2017?
Supplemental Response: No
Request for Admission No. 4: Did .Defendant possess the
knowledge, skills, and ability to understand the clear directions of
the summons and all processes thereof?
Supplemental Response: Defendant admits he understood the
directions contained in the summons"
Appendix__E

*.

Jeffrey Atkins [attorney thereof] requested to move the Civil case to a Federal
Court. Pursuant to Federal Rules of Civil Procedures 81 (c)(2) the requested
removal extended Jeffrey Atkins only until September 05, 2017 to file a defense
to the specific Civil suit which illustrated the following definitive obligation:
"Ypu are required to mail or hand deliver a copy, of a written.,
response to the complaint to Ruben Orlando Benitez, the plaintiff,
whose address is P.O. Box 1419 Leakesville, MS 39451. Your response
must be mailed or delivered within (30) days from the date of
delivery of this'summons and complaint or a judgment by default
will be entered against you for the money or other things demanded
in the complaint."
\

t.

Ap'pendix'_F

i

Without a Court granted extension being issued "on or before" the deadline date
t.

of September 05> 2017, Jeffrey Atkins [attorney thereof] submits a defense on
October 12, 2017 in "default" with the principle elucidated defense of:
.:

"1. This Court lacks jurisdiction over the subject matter of this
action.

'

2. This Court lacks jurisdiction over the person Of Atkins."
!

Appendix _G
:

Although Jeffrey Atkins [attorney thereof] unequivocally and under oath
deprecates the Federal Court's jurisdiction over the Civil case, the U.S. District

■'•X

Court of Southern Mississippi allows for over eighty (80) documents to be filed for
the identified case of l:17-cv-00233-HSQ-RHW. It is extraordinary that a U.S.
Federal Court would continue to accept and review documents for which the
Defendant's primary and principle defense is that the Federal Court "Lacks
Jurisdiction."

Notwithstanding, Indigent Pro Se Petitioner Benitez has never withdrawn the
principle argument of lack of jurisdiction and default against Jeffrey Atkins
[attorney thereof].

Appendix _H
Appendix _[

The U.S. Court of Appeals for the Fifth (5th) Circuit also continues the prejudice
in not remanding the Civil case to the Greene County Circuit Court of Mississippi
notwithstanding Jeffrey Atkins, the U.S. District Court of Southern Mississippi, and
Indigent Pro Se Petitioner Benitez all stating under oath that the Federal Court
"Lacks Jurisdiction."

Given the submitted documents on record, the Civil case must be remanded to
the Greene County Circuit Court of Mississippi or in the alternative, Jeffrey Atkins

must be found in default for not responding to the served summons "on or
before" September 05, 2017. The most compelling proof associated to the
default is the "e-mail" which was sent directly to Honorable Magistrate Judge
Robert H. Walker of the U.S. District Court for the Southern District of Mississippi
Southern Division on September 8, 2017, post deadline without cause shown, ,
illustrating the following;

"...therefore again respectfully requests this Court to enter an order
Granting Defendant's motion."

This e-mail was sent directly to the Honorable Magistrate Judge Robert H. Walker
and is considered an "ex-parte communication" as Pro Se Benitez does not
appear on the e-mail recipient's list nor is there a certificate of service attached.

"The violation of the principles of justice...should be dealt with by
the court no matter by whom or at what stage of the proceedings
the facts are brought to its attention."

Sorrells v. U.S.. 287 U.S. 435, 53 S. Ct. 210/ 36A.L.R. 249, 77L. Ed 413, 38
Appendix _J

U.S. Supreme Court Rule 20.1

This petition is being submitted to illustrate the wrongful actions of the
U.S District Court of Southern Mississippi and the U.S Court of Appeals for
the Fifth Circuit. The petition warrants granting to aid the Federal Court
reaffirm a well-founded and justifiable appellate jurisdiction reviewing
process.
This Court's discretionary powers are warranted to correct the mistakes
of the two prior reviewing Court's erroneous decisions in not remanding
the Civil case, removed to the Federal Court by the Defendant [attorney
thereof], l:17-cv-00233-HSQ-RHW from its true jurisdictional Greene
County Circuit Court of Mississippi Cause No. 2017-063 (2). Moreover, the
U.S. District Court of Southern Mississippi overlooks the unembellished fact
of the Defendant's [attorney thereof] pure denunciation of the Federal
Court's jurisdiction in the sworn response. It is preposterous for the
Defendant [attorney thereof] to remove a civil case from a State Court to a
Federal Court and then decry the Federal Court's jurisdiction. It is also
outrageous for the Federal Court to assume jurisdiction and then admit it
has no personal jurisdiction over the case. Both occurrences are absolute
forms of intimidation, coercion, and malicious disregard for the principles
of justice. This Court's discretionary powers were recognized fdr cases such
as this were a reviewing Court(s) has manifestly tarnished the established
law passed by legislature and has openly disregarded the principles of

justice by denying relief in a way which is detrimental to the entire judicial
system.
Pro Se Plaintiff Ruben Orlando Benitez has presented a Civil case with
all the required evidence for which two Federal Courts refuse to
acknowledge and take the appropriate action. There may feasibly be a
cause to levy criminal charges against both courts as Assistant U.S. Attorney
Stephen R Graben was assigned to defend the Defendant Jeffrey Atkins by
the U.S Department of Justice. The criminal charge would be handled by
the same U.S. Department of Justice which is currently investigating the
State of Mississippi. Therefore, the presumptive criminal case would create
the conundrum of the U.S. Department of Justice investigating the
corruption of the State of Mississippi for which Assistant U.S. Attorney
Stephen R. Graben is a representative of the investigating agency who is
consorting with State Justice Officials of Mississippi who have at every
instance openly deprived justice to Pro Se Plaintiff Ruben Orlando Benitez
who filed a Civil lawsuit without the assistance or benefit of counsel against
the Deputy cierk of the U.S. Supreme Court citing, inter alia, malice,
corruption, and intimidation.
However, this Court can provide adequate relief by reversing the
rulings of the U.S. Court of Appeals Fifth Circuit and the U.S. District Court
of Southern Mississippi and remand the Civil case, Ruben Orlando Benitez
v. Jeffrey Atkins Cause No. 2017-063 (2), to the Greene County Circuit
Court of the State of Mississippi with directions to award monetary
damages to Pro Se Plaintiff Ruben Orlando Benitez as the damage created

by the indecorous denials by the prior reviewing courts were atrocious and
carried out against the peace and dignity of justice. In the most desirable
alternative, this Court can determine the actual malice, corruption,
intimidation, and coercion, exhibited by the two prior reviewing Courts
were inexcusable and the irreversible default of Defendant Jeffrey Atkins is
manifestly obvious thus demanding Defendant Jeffrey Atkins pay the
monetary award of damages sought to include all related court cost and
filing fees which Pro Se Plaintiff Ruben Orlando Benitez endured. In the
most minimalist alternative, this Court can remand the Civil case to the
exclusive jurisdictional Greene County Circuit Court of the State of
Mississippi with instructions to grant Pro Se Plaintiff Ruben Orlando Benitez
the sought after relief including court and filing fees and to determine if
there are any aggregate elements.

SUPREME COURT OF THE UNITED STATES

PLAINTIFF

RUBEN ORLANDO BENITEZ
VERSUS

DEFENDANT

JEFFREY ATKINS

PETITION FOR AN EXTRAORDINARY WRIT

Comes now, Indigent Pro Se Plaintiff Ruben Orlando
Benitez, without the benefit or assistance of counsel, filing
this Petition for an Extraordinary Writ pursuant to the
Supreme Court of the United States Rule 20.
Clerical mistakes in judgments, orders or other parts of
the record and errors therein arising from oversight

It is unfathomable that a clerk of a court cannot be
accountable for an action which is, l) a legal duty owed by
one to another; 2) a breach of that duty; 3) damages
proximately resulting from the breach. Greater Hous.
Transv. Co. v. Phillips. 801 S. W. 2d 523 (Tex. 1990); El
l

Chico Cory, v Poole. 732 S. W. 2d 306, 311 (Tex. 1987);
Otis Eng’s Coro, v. Clark. 668 S. W. 2d 307, 312 (Tex.
1983) Pro Se Benitez will unequivocally demonstrate that
Mr. Atkins “personally” sought to ensure Benitez would
not be afforded a correct process due. Ashcroft v. Iqbal.
556 U.S. 662, 678, 129 S. Ct. 1937, 173 L. Ed. 2d 868
(2009); BellAtl. Coro, v. Twomblv. 550 U. S. 544, 570, 127
S. Ct. 1955, 167L. Ed. 2d 929 (2007) The very fact Mr.
Atkins [attorney thereof] does not deny or contradict the
submitted affidavits by three different people, who were
present for a personal phone conversation held between
Mr. Atkins and Benitez on or about September 26, 2017,
is unequivocally the most relevant evidence. EXHIBIT 1
Ferguson v. Natl Broad Co. Inc.. 584 F 2d 111, 114 (5th
Cir. 1978) Especially when the United States Court of
Appeals 5th Circuit issues an order of denial which clearly
stipulates that Mr. Atkin’s failure to discuss or contradict
the affidavits establishes a waiver. Yohev v. Collins. 985 F
2d 222, 225 (5th Cir. 1993); Ferguson v. Natl Broad Co.
Inc., 584 F2d 111, 114 (5th Cir. 1978) Therefore, the
affidavits must be viewed as undeniable proof as admitted
which on its own entitle Pro Se Benitez to relief as a

2

**>

matter of law. Gen. Tel. Cory, v. Gen. Tel. Answering
Serv.. 277 F. 2d 919, 921 (5th Cir. I960); Celotex Corn, v.
Catrett. 477 U. S. 317, 106 S. Ct. 2548, 91L. Ed 2d 265,
54 USLW4775, 4 Fed. R. Serv. 3d 1024 (1986), United
States v. Plano. 507U.S. 725, 733, 113 S. Ct. 1770, 123 L.
Ed 2d 508 (1993) In this phone conversation Mr. Atkins
made it clear that “he” would ensure the submissions of
Benitez would not he approved. Speed v. Scott, 787 So. 2d
626, 630 (Miss. 2001); Davis v. City of Clarksdale, 18 So.
3d 246, 249 (Miss. 2009) The record is clear, Mr. Atkins
personally changed the meaning of the submissions
therefore causing additional prejudice: thereby adhering
to “his” personal undertaking. Terry v. Hubert, 609 F. 3d
757, 761 (5th Cir. 2010); Morrison v. Miss. Enter, for
Tech.. Inc.. 798 So. 2d 567, 574 (Miss. Ct. App. 2001);
McDonald v. Steward. 132 F. 3d 225, 230'31 (5th Cir.
1998)

3

Newly discovered evidence which was not available

Benitez contends it is impossible for the Clerk, of the
United States Supreme Court, to have absolute immunity
m a civil case when a Federal Court has determined that
even the President of the United States has no such
immunity in a civil case. 1'19~CV~02379-KBJ U.S. District
Court of Columbia,' Muhammad v. Muhammad, 622 So.
2d 1239, 1242 (Miss. 1993) The error exhibited by the
United States Court of Appeals of the 5th Circuit Court
must be corrected as the affirmation of the order issued
on October 12, 2019 places Jeffrey Atkins, Clerk of the
U.S. Supreme Court, in a higher position then the
President of the United States of America and by
interpretation “A KING.” United States v. Fernandez, 797
F 3d 315, 318 (5th Cir. 2015)

4

Judgment must be voided
Pro Se Benitez also contends the two Judges who filed
the current denial order, in the Fifth Circuit Court, on the
civil case, must recuse themselves as they ruled in the
appeal of Benitez’s criminal case in the State Court of
Mississippi. Neither Judge issued an opinion for the
denial notwithstanding the written request by Pro Se
Benitez in the State Court procedure to be afforded one.
More egregiously, neither Judge issued an opinion on the
basic denial of a constitutional right of life and liberty
which was clearly demonstrated by Pro Se Benitez. Kelly
LLC v. Corinth Pub. Utils. Comm ’n, 200 So. 3d 1107,
1112-13 (Miss. Ct. App. 2016) Therefore the Judges have
violated 28 U.S.C. section 455 as both played an active
role in the State Court process which clearly formulated
their current prejudicial “per curiam” order. Manguno v.
PrudentialProv. & Cas. Ins. Co., 276F. 3d 720, 725 (5th
Cir. 2002) The evidence of the Judge’s predisposition
towards Benitez is demonstrated in the order of denial
which ignores the need to recant a U.S. Supreme Court
case, Lujan v. National Wildlife Federation. 497 U.S. 871,
110 S. Ct. 3177, 31ERC1553, 111 L. Ed 2d 695, 20

5

ENVIL. L. REP. 20 962 (1990), which wholly condemns a
party for not responding to a summons within the
prescribed time frame. EXHIBIT 2 Their malicious
actions display unconstrained contempt for the Judicial
System and their egregious conduct rescinds the very
concept of justice. No Federal Court is to be agnostic with
respect to the entry of default judgment as the standard
of review is abuse of discretion and the slightest abuse of
discretion may justify relief. United States v. One Parcel
ofReal Property, 763 F. 2d p 181, 183 (5th Cir. 1985)
The second display of predisposition is the fact the
order illustrates information about the conviction of
Benitez which was never presented in the civil case.
EXHIBIT 3 Thus the Judges harbor malice towards the
ability for Pro Se Benitez not only to be granted relief but
to the exposure of the wrongful State Court ruling. Third,
the order illustrates that it was “per curiam.” However,
since the order erred in not withdrawing the established
U.S. Supreme Court case [Lujan\ no such “per curiam”
could be had. The Judges must either adhere to the case
of antecedence or withdraw it and it must be done by

6

review of the entire court with the two Judges submitting
an order of recusal.
Mistakes, Inadvertence, Fraud. & Misrepresentation

The U.S. Court of Appeals of the Fifth Circuit also
ignored the valid argument of “Lack of Jurisdiction.”
Franklin v. State of Oregon, 662 F. 2d 1337, 1342 (9th Cir.
198l)Mx. Atkins [attorney thereof] openly states the U.S.
District Court of Southern Mississippi had “no
jurisdiction” over the civil case in the original response
submitted after the deadline. EXHIBIT 4 & 5 Pro Se
Benitez also stated the same fact in numerous
submissions which were corroborated by multiple Federal
cases .Harlow v. Fitzserald, 457 U.S. 800 (1982); U.S. v.
Tisdale, 195 F. 3d (1999); U.S. v. Weaver, 99 F. 3d 1372
(1996); Backe v. LeBlanc, 691 F. 3d 645, 648 (5th Cir.
2012)^ve,n the U.S. District Court of Southern
Mississippi stated they had “no personal jurisdiction” in
their issued order. Therefore, the U.S Court of Appeals of
the Fifth Circuit commits yet another error and has
issued an order which is clearly prejudice and has no

7

merits to its own conclusion. Lewis v. Lynn. 236 F 3d
766, 767 (5th Cir. 2001) The U.S. Court of Appeals of the
Fifth Circuit was bound by law to view the facts presented
by Pro Se Benitez and had an obligation to either refute
the facts by demonstrating law to support its conclusions
or issue an order to proceed to a trial of the facts to be
judged by a jury and not by Judges who have repeatedly
demonstrated prejudice, malice, and lawlessness. Mancini
v. Lester. 630 F. 2d 990 (1980), Hampton v. Chicago, 484
F 2d 602 (7th Cir. 1973),' Stump v. Sparkman. 435 U.S.
349, 98 S. Ct. 1099, 55 L. Ed 331 (1978) It is undeniable
that the rulings of summary judgment must be guided by
the clear and convincing evidentiary standard in
determining whether genuine issues of actual malice
exist. This requires a jury to weigh the evidence, as the
drawing of legitimate inferences from the facts is a jury
function, not those of a Judge. Curley v. United States.
160 F. 2d 229, 232-233 (D.C. Cir. 1947);Harbin v.
Burlinsrton N.R. Co., 921F. 2d 129, 131 (7th Cir. 1990)

8

Mistakes, fraud, all other rules and procedures which
were created by error

Finally, the case of Williams v. Wood, 612 F.2d 982,
984-85 (5th Cir. 1980) is irrelevant as the record is replete
in demonstrating the U.S. District Court of Southern
Mississippi, Defendant Jeffrey Atkins [attorney thereof],
and Pro Se Plaintiff Ruben Orlando Benitez “all agree”
the Federal Court “does not hold jurisdiction over the
submitted civil action.” 1 '■! 7-cv-Q0233-HSQ-RHW
Unless this court holds that a case in which “all”
parties, including the reviewing court, who have
indisputably stated “under oath,” that the Federal Court
holds “no jurisdiction,” can still review and decide a case
by ignoring court antecedence and established law, the
civil case of Ruben Orlando Benitez v. Jeffrey Atkins
must be remanded to the Greene County Circuit Court of
Mississippi. Cavallini v. State Farm Mut. Ins. Co., 44 F.
3d 256, 264 (5th Cir. 1995) In the alternative, the
Defendant Jeffrey Atkins can elect to plead providing
Ruben Orlando Benitez the full monetary damages as

9

relief to include all associated filing and court cost.
Sorrells v. U.S.. 287 U.S. 435, 53 S. Ct. 210, 86A.L.R.
249, 77L. Ed 413, 38
Conclusion

Wherefore premises considered, the multiple errors
demonstrated by the U.S. District Court of Mississippi,
U.S. Court of Appeals of the Fifth Circuit, Judge Graves,
and Judge King warrant the granting of this
extraordinary writ submitted by Plaintiff Ruben Orlando
Benitez filing Pro Se.
Very Respectfully Submitted,

Ruben Orlando B^itez

Sworn to and subscribed before me, this the

17

ZfcL

MDOC# 182157
day of September, 2020

Notary

.•

•

.........

■Mm#’

10

